HHS/OIG, Audit - "Review of Undistributable Child Support Collections in
New Jersey From October 1, 1998, Through March 31, 2006," (A-02-06-02005)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Undistributable Child Support
Collections in New Jersey From October 1, 1998, Through March 31, 2006," (A-02-06-02005)
February 8, 2008
Complete Text of Report is available in PDF format (460 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Federal regulations require States to offset Child Support
Enforcement program costs by recognizing and reporting program income from
undistributable child support collections and interest earned on child support
collections.  States report to the Federal Government undistributable
collections and program income quarterly on Federal Forms OCSE-34A and
OCSE-396A.  For the period October 1, 1998, through March 31, 2006, the State
agency did not recognize or report program income of $281,990 ($186,113 Federal
share) for the undistributable child support collections and related interest.
In addition, during the same period, the State did not accurately report
undistributable child support collections quarterly on its OCSE-34A to the
Federal Government.  We recommended that the State agency (1) report $281,990
($186,113 Federal share) as program income to the Federal Government and (2)
provide program oversight and implement procedures and controls to ensure that undistributable collections and interest are identified and accurately reported
as program income on Forms OCSE-34A and OCSE-396A.  State agency officials
concurred with our recommendations.